       DEPARTMENT OF HEALTH &. HUMAN SERVICES                                                   Office of Inspector General


                                                                                                Washington, D.C. 20201



                                                    JUN -8 200J



TO:               Deborah Taylor
                  Acting Director and Chief Financial Officer
                  Centers for Medicare & Medicaid Services
                    <~ 'TV~        /S/
FROM:             Stfi'ari ~ght . ~ -
                  Deputy Inspector General
                      for Evaluation and Inspections


SUBJECT:          Memorandum Report: "Inaccurate Data in the Provider Enrollment, Chain, and
                  Ownership System Individual Global Extract File" (OEI-07-08-00181)


This memorandum report describes inaccurate data that we found in the Provider Enrollment,
Chain, and Ownership System (PECOS) Individual Global Extract File (the Extract). During
data collection for a study entitled "Reassignment of Medicare Benefits" (OEI-07-08-00180), we
identified discrepancies between PECOS and the May 2008 Extract in the number of active
Medicare reassignments of benefits (hereinafter referred to as reassignments) and the effective
dates of reassignments. I We asked the Centers for Medicare & Medicaid Services (CMS) staff
to explain the discrepancies between the two data sources. CMS staff investigated and found
that the Extract retained records of terminated reassignments, when only active reassignments
should have been reflected. Additionally, the Extract contained inaccurate effective dates of
reassignments. CMS staff agreed to add information regarding the inaccurate data to their
tracking log for PECOS and prioritize the identification of solutions for a future release of
PECOS, although they did not indicate when the solutions would be implemented.

BACKGROUND

The PECOS is the electronic system of records Medicare contractors use to enroll and maintain
information on providers. The PECOS contains information on reassignments, provider
correspondence and payment addresses, ownership and management, and adverse legal actions
against providers.

The Extract is designed to provide a point-in-time snapshot of all PECOS data on active
providers and their active reassignments. 2 A new Extract is created on the first business day of
every month. There are two separate Extract files: the Individual Global Extract File, which
contains records for individual providers; and the Organizational Global Extract File, which

I Reassignments are a mechanism by which a Medicare provider allows another entity, or third party, to bill for
services that it rendered.
2 CMS, "Global Extract File How-To Guide," Document ID: PECOS-4.4.0-UG-31339-v.2.10, p. I.




OEI-07-08-00181        Inaccurate Data in the PECOS Individual Global Extract File
Page 2 – Deborah Taylor


contains records for organizational providers. 3 The Extract was developed to eliminate the need
for CMS staff to fulfill many one-time and ongoing data requests. CMS staff, research firms,
and Medicare contractors use the Extract to obtain provider participation status and practice
location information. 4 It is also used to assist beneficiaries with finding a provider through the
Medicare.gov Web site.

CMS issues periodic releases and updates to PECOS to add new functionality and correct errors
as needed. These releases can result from CMS initiatives or change requests. CMS issued the
most recent release in March 2009, and CMS staff indicated the next release will likely occur in
May 2009. CMS staff anticipate additional releases later in 2009 and 2010.

From late 2008 to early 2009, we attempted to contact sampled providers for our ongoing study
on Medicare reassignment of benefits. The purpose of that study is to determine whether
Medicare providers were aware of all active reassignments as listed in the Extract. Prior to
beginning data collection, CMS staff confirmed their belief that the Extract contained only
records of active reassignments (i.e., reassignments that had never been terminated).

METHODOLOGY

We used the May 2008 Extract to select a random sample of 497 Medicare providers whose
benefits had been reassigned. These providers had a total of 1,816 reassignments in the Extract.
We searched the PECOS database to ascertain whether providers’ correspondence addresses had
changed between the creation of the May 2008 Extract and the date we attempted to contact the
providers (i.e., September 2008–March 2009). We found that some of the reassignments
contained in the Extract had end dates in the PECOS database, indicating that they had been
terminated. Upon further examination, we also found that the effective dates for many of the
reassignments recorded in the Extract were different from the effective dates recorded in the
PECOS database. We asked CMS staff in the Office of Financial Management to explain these
discrepancies.

This study was conducted in accordance with the “Quality Standards for Inspections” issued by
the President’s Council on Integrity and Efficiency and the Executive Council on Integrity and
Efficiency (now Council of the Inspectors General on Integrity and Efficiency).




3
 We reviewed only the Individual Global Extract File.
4
 Research firms and contractors using the Extract include: IOWA Foundation, Lockheed Martin, National
Government Services, Thompson Reuters, and ViPS®.


OEI-07-08-00181       Inaccurate Data in the PECOS Individual Global Extract File
Page 3 – Deborah Taylor


RESULTS

The Extract Contains Records With Terminated Reassignments and Inaccurate Effective
Dates, Which Limits Its Usefulness
The inaccurate data we identified limited the usefulness of the Extract, requiring us to search the
PECOS database for the individual records of all 497 Medicare providers in our sample to verify
the accuracy of the Extract data. We found two types of errors. One type of error caused records
of terminated reassignments to be retained in the Extract, which should have contained only
records of reassignments that were active on the date the Extract was created. We found that
3.2 percent of the records present in the Extract were affected by this type of error. 5 The second
type of error occurred when the date that the reassignment record was created in PECOS
populated the effective date field in the Extract, rather than the date the reassignment took effect.

CONCLUSION

In response to our inquiries about the discrepancies between the Extract and the PECOS
database, CMS staff indicated that they would conduct further research to determine the exact
cause of errors in the Extract. CMS staff indicated that they would add information regarding
the inaccurate data to their tracking log for PECOS and prioritize identifying solutions in a future
release of PECOS, although they did not indicate when the solutions would be implemented.
Until these errors are corrected, the Extract will continue to include inaccurate data, which limits
its usefulness.

To limit the impact of the inaccurate data, CMS may want to alert all users of the Extract of the
extent and nature of data inaccuracies in the Extract until a corrected version of PECOS is
released.

When correcting the processing errors, CMS may also want to explore whether other
inaccuracies exist in the Extract, such as whether

•   the Organizational Global Extract file contains similar inaccuracies,
•   other date fields are populating incorrectly, and
•   records of disenrolled providers remain in the Extract.

This memorandum report is being issued directly in final form because it contains no
recommendations. If you have comments or questions about this report, please provide them
within 60 days. Please refer to report number OEI-07-08-00181 in all correspondence.




5
  The 95-percent confidence interval for the 3.2 percent of reassignments present in the Extract that should have
been terminated was 1.8 percent–4.6 percent. This projects to 26,511 reassignments with a 95-percent confidence
interval of 15,031–37,991 reassignments.


OEI-07-08-00181        Inaccurate Data in the PECOS Individual Global Extract File
